 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


      Independent Review of The U.S. 

   Immigration and Customs Enforcement’s 

     Reporting of FY 2007 Drug Control 

          Performance Summary 





OIG-08-45                    April 2008
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                            April 18, 2008

                                                Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of the review of the Performance Summary of the DHS’ Immigration
and Customs Enforcement (ICE) for the year ended September 30, 2007, for the Office of National
Drug Control Policy (ONDCP). We contracted with the independent public accounting firm KPMG
LLP to perform the review. ICE’s management prepared the Performance Summary Report and
Management Assertions to comply with the requirements of the ONDCP Circular, Drug Control
Accounting, dated May 1, 2007. We do not express an opinion on the Performance Summary Report
and Managements Assertions.

It is our hope that the information in this report will continue to result in effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                                Richard L. Skinner 

                                                Inspector General 

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                        Independent Accountants' Report



lnspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Performance Summary Report of the U.S. Department of Homeland
Security's (DHS) U.S. Immigration and Customs Enforcement (ICE) for the year ended September 30,
2007. We have also reviewed the accompanying management's assertions for the year ended
September 30, 2007. ICE's management is responsible for the Performance Summary Report and the
assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Performance Summary Report
and management's assertions. Accordingly, we do not express such an opinion.

Management of ICE prepared the Performance Summary Report and management's assertions to comply
with the requirements of the Office of National Drug Control Policy (ONDCP) Circular, Drug Control
Accounting, dated May 1,2007.

Based on our review, nothing came to our attention that caused us to believe that (1) the Performance
Summary Report for the year ended September 30, 2007 is not presented, in all material respects, in
conformity with ONDCP's Circular, Drug Control Accounting (May 1, 2007), or that (2) management's
assertions referred to above are not fairly stated, in all material respects, based on the criteria set forth in
ONDCP's Circular, Drug Control Accounting (May 1,2007).

This report is intended solely for the information and use of the management of DHS and ICE, the
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 25, 2008




                                 KO'd;}   l    n      .=:   _"3    I   ~-11;:;u,     11   ~lJ:lltll:!·31   [1          U'''i' I);)
                                  ''::111':'5' hili         S   Dl.1    ''''TI;l~!-:::'''i'l   II ::;".~-a.s: r.:oXl      1,lll,'!)
                           PERFORMANCE SUMMARY REPORT
                              OFFICE OF INTELLIGENCE

Measure: Pounds of Drugs Interdicted

  FY 2003        FY 2004         FY 2005         FY 2006        FY 2007         FY 2007         FY 2008
   Actual         Actual          Actual          Actual         Target          Actual          Target
70,107 lbs     207,234 lbs     175,267 lbs     231,274 lbs        N/A*        54,509 lbs.       TBD**

*	 Due to reorganization within the Office of Intelligence, FY 2007 represented a period of reallocation of
   assets and resources away from the drug interdiction support mission, and toward a classified
   interagency national security related project, as well as closer alignment with investigative mission
   areas. Interdiction support formally ceased as an ICE Intelligence program by the end of FY07. JIATF
   South, EPIC/DEA, DOD, and USCG, former interdiction support partners with ICE Intelligence, have
   assumed the ICE portion of the mission within the course of their normal CN intelligence activities.

**	 FY 2008 counternarcotics activities are invested in collecting CN requirements from ICE operational
    offices, and designing production to meet those requirements. FY08/09 will see the establishment of a
    new counternarcotics baseline, based on customer-driven intelligence products and support.

(1)   Description

Interdiction support was a holdover mission based on pre-DHS U.S. Customs intelligence
priorities. These Customs priorities do not have a significant corresponding customer
within the ICE Intelligence customer set. Thus, this performance measure was phased out
during FY 2007.

(2)   FY 2007 actual performance results

FY 2007 represented a year of residual interdiction support, carried on during the
phasedown of the interdiction support mission. There was no formal interdiction target
for that year.

(3)   Performance Target for FY 2008

During FY 2008, the Office of Intelligence is building a set of customer requirements for
CN support. Following determination of the total set of requirements, along with a
negotiated body of production to meet those requirements, a baseline year for CN
performance can be determined. Performance measurement will be based on how the
operational elements in ICE express their needs for intelligence support, and what will
satisfy those needs.

(4) 	Quality of Performance Data

The database used to validate the Office of Intelligence performance data is the Narcotic
Tactical Reporting System (NTRS). Intelligence relies on the database to ensure that the
performance data is reasonable and accurate in regard to the workload data employed.



                                                                                                          1
                       PERFORMANCE SUMMARY REPORT
                          OFFICE OF INVESTIGATION


Measure 1: Percent of closed investigations which have an enforcement consequence
(arrest, indictment, conviction, seizure, fine or penalty)

 FY 2003       FY 2004      FY 2005      FY 2006       FY 2007      FY 2007       FY 2008
  Actual        Actual       Actual       Actual        Target       Actual        Target
   N/A           N/A         37.9%        36.4%        36.5%         35.8%        36.6%

(1)Description

The outcome measure for OI as a whole is the percentage of closed investigations that
have an enforcement consequence defined as arrest, indictment, conviction, seizure, or
penalty. However, OI has constructed new performance measures that will tie drug
control efforts to impacts on the systems by which drugs and drug money are moved and
stored. However, ICE will continue to provide traditional measures such as drug seizures
to support the outcomes developed by ONDCP.

The Office of Investigations (OI) was reviewed in PART as one program. Therefore,
there are no separate findings for the Drug component of OI’s mission. Furthermore, ICE
is authorized to enforce Federal statutes and regulations concerning the movement of
carriers, persons, and commodities between the United States and other nations, which
enables ICE to play a key role in the overall anti-drug effort with a nexus to the border.

ICE has broad authority to investigate international financial crime and money
laundering. ICE’s jurisdiction is triggered by the illegal movement of criminal funds,
services, or merchandise across the nation’s borders and is applied pursuant to the
authority of the Bank Secrecy Act, the USA PATRIOT Act, and the Money Laundering
Control Act.

ICE participates in and actively supports the Organized Crime Drug Enforcement Task
Forces (OCDETF). ICE OCDETF Coordinators sit on each of OCDETF’s nine regional
task forces and actively interact with other federal law enforcement agencies, local police
chiefs, and state and local prosecutors. ICE dedicates resources to participate in highly
complex OCDETF investigations targeting major drug smuggling organizations.

This measure evaluates the percent of closed cases worked by the Office of Investigations
in a selected fiscal year that produced an enforcement consequence (e.g., arrest,
indictment, conviction, seizure, fine and/or penalty). Based on management review of
our performance results, the decision has been made that any result within one percent of
the target will be considered “Met”. One percent was chosen as the factor of error on a
reasonable standard versus a statistical basis for all program measures. Note that other


                                                                                            2
government agencies have a similar practice. Hence, our FY 2007 target of 36.5% was
“Met” based on our FY 2007 actual of 35.8%.

ICE Office of Investigations (OI) has proposed new performance measures, and outputs
for FY 2008 – FY 2013. These new performance measures and outputs are strategic in
scope and are also in the draft ICE Strategic Plan. The existing performance measure
under “Issue 2” will still be maintained in the Future Years Homeland Security Program
(FYHSP) database and will not be replaced.

The proposed new measures will be entered and tracked during 1st Quarter of FY 2008
and the FY 2008 totals will be used as base for the subsequent fiscal years.

More effective immigration and trade enforcement will contribute to enhanced homeland
security as well as to greater deterrence. One method for measuring this effectiveness is
to determine the extent to which criminal investigations are completed successfully, i.e.,
closed with an enforcement consequence. However, although many criminal cases arise
that are worth pursuing, the potential of an investigation is not known at its inception;
therefore, it is to be expected that many cases will be closed each year without an
enforcement consequence when it is determined that the investigation is no longer viable.
In addition to getting criminals off the street, successful investigations also expose and
remove, or contribute to the elimination of, vulnerabilities in various aspects of trade and
immigration, i.e., the ways in which criminals manage to evade safeguards that are
supposed to prevent their illegal activity, and areas in which such safeguards are lax or do
not exist.


(2) FY 2007 actual performance results

Final performance fell below target. OI achieved a 35.8% performance target as a result
of the following:

OI agents are urged to and have been working towards achieving higher quality level
investigations in terms of complexity in order to identify, disrupt, and dismantle criminal
organizations. As a result, the complexity of investigative cases is increasing which
prevents closure of cases.

Many cases may be awaiting judicial processing such as: sentencing, trials, adjudications,
appeals, etc.

Final disposition of cases have been delayed due to complexity of prosecutions, arrests,
seizures, fines and penalties. Fines and penalties may be mitigated, which takes
additional time.

Seizures and forfeitures are criminal and civil in nature and proceedings are quite
lengthy. Also, there can be petitions for relief (similar to appeals).




                                                                                           3
Due to ongoing quality control throughout OI, cases can be reopened, cancelled, etc.
which can affect law enforcement statistics at any one time.

As stated in our report, OI has proposed new performance measures and outputs for FY
2008 – FY 2013. These new performance measures and outputs are strategic in scope
and are also in the draft ICE Strategic Plan.

Measure 2, “percent of closed drug smuggling investigations which have an enforcement
consequence (arrest, indictment, conviction, seizure, fine or penalty)” is a new measure
established in FY 2007. FY 2008 will be the baseline year for data collection/analysis.
Targets will be set for FY 2009 and out-years based upon FY 2008 results.

Also, OI does not provide year to year targets for seizures – only year end data.

This measure evaluates the percent of closed cases worked by the Office of Investigations
in a selected fiscal year that produced an enforcement consequence (e.g., arrest,
indictment, conviction, seizure, fine and/or penalty). Based on management review of
our performance results, the decision has been made that any result within one percent of
the target will be considered “Met”. One percent was chosen as the factor of error on a
reasonable standard versus a statistical basis for all program measures. Note that other
government agencies have a similar practice. Hence, our FY 2007 target of 36.5% was
“Met” based on our FY 2007 actual of 35.8%.

ICE Office of Investigations (OI) has proposed new performance measures, and outputs
for FY 2008 – FY 2013. These new performance measures and outputs are strategic in
scope and are also in the draft ICE Strategic Plan. The existing performance measure
under “Issue 2” will still be maintained in the Future Years Homeland Security Program
(FYHSP) database and will not be replaced.

(3) Performance target for FY 2008

The performance target for FY 2008 is 36.6%. The target increase of .1% is based upon
prior year’s performance results. However, OI has constructed new performance
measures that will tie drug control efforts to impacts on the systems by which drugs and
drug money are moved and stored. Also, ICE will continue to provide traditional
measures such as drug seizures to support the outcomes developed by ONDCP.

Measure 3, “Dollar value of real or other property seizures derived from/and/or used from
drug operations” was included because, as our report states, this output measure directly
evaluates the success of removing financial incentives for criminals and terrorists to
operate their drug activities. The scope of data demonstrates the ability, in a given
timeframe, of removing criminal financial assets.

In an effort to reduce losses to the public resulting from financial crimes, OI continues to
target transnational money laundering activities and bulk currency smuggling (both drug
related and non-drug related).



                                                                                           4
Also, OI does not provide year to year targets for seizures – only year end data.


(4) Quality of Performance Data

The database used to validate the Office of Investigations (OI) performance data is the
Treasury Enforcement Communication System (TECS). The Office of Investigation
conducts quality control verification on all data received through TECS.

Measure 2: Percent of closed drug smuggling investigations which have an enforcement
consequence (arrest, indictment, conviction, seizure, fine or penalty).

 FY 2003       FY 2004      FY 2005       FY 2006      FY 2007       FY 2007        FY 2008
  Actual        Actual       Actual        Actual       Target        Actual         Target
   N/A       N/A              N/A          N/A           N/A          N/A           Baseline

(1) Description

The outcome measure for OI as a whole is the percentage of closed investigations that
have an enforcement consequence defined as arrest, indictment, conviction, seizure, or
penalty. However, OI has constructed new performance measures that will tie drug
control efforts to impacts on the systems by which drugs and drug money are moved and
stored. However, ICE will continue to provide traditional measures such as drug seizures
to support the outcomes developed by ONDCP.

The Office of Investigations (OI) was reviewed in PART as one program. Therefore,
there are no separate findings for the Drug component of OI’s mission. Furthermore, ICE
is authorized to enforce Federal statutes and regulations concerning the movement of
carriers, persons, and commodities between the United States and other nations, which
enables ICE to play a key role in the overall anti-drug effort with a nexus to the border.
ICE has broad authority to investigate international financial crime and money
laundering. ICE’s jurisdiction is triggered by the illegal movement of criminal funds,
services, or merchandise across the nation’s borders and is applied pursuant to the
authority of the Bank Secrecy Act, the USA PATRIOT Act, and the Money Laundering
Control Act.

ICE participates in and actively supports the Organized Crime Drug Enforcement Task
Forces (OCDETF). ICE OCDETF Coordinators sit on each of OCDETF’s nine regional
task forces and actively interact with other federal law enforcement agencies, local police
chiefs, and state and local prosecutors. ICE dedicates resources to participate in highly
complex OCDETF investigations targeting major drug smuggling organizations.

This measure evaluates the percent of closed cases worked by the Office of Investigations
in a selected fiscal year that produced an enforcement consequence (e.g., arrest,
indictment, conviction, seizure, fine and/or penalty).



                                                                                              5
More effective immigration and trade enforcement will contribute to enhanced homeland
security as well as to greater deterrence. One method for measuring this effectiveness is
to determine the extent to which drug smuggling investigations are completed
successfully, i.e., closed with an enforcement consequence. However, although many
drug smuggling cases arise that are worth pursuing, the potential of an investigation is not
known at its inception; therefore, it is to be expected that many cases will be closed each
year without an enforcement consequence when it is determined that the investigation is
no longer viable. In addition to getting criminals off the street, successful investigations
also expose and remove, or contribute to the elimination of, vulnerabilities in various
aspects of trade and immigration, i.e., the ways in which criminals manage to evade
safeguards that are supposed to prevent their illegal activity, and areas in which such
safeguards are lax or do not exist.

(2) FY 2007 actual performance results

This is a new measure established in FY 2007. FY 2008 will be the baseline year for data
collection and analysis.

As stated in our report, OI has proposed new performance measures and outputs for FY
2008 – FY 2013. These new performance measures and outputs are strategic in scope
and are also in the draft ICE Strategic Plan.

Measure 2, “percent of closed drug smuggling investigations which have an enforcement
consequence (arrest, indictment, conviction, seizure, fine or penalty)” is a new measure
established in FY 2007. FY 2008 will be the baseline year for data collection/analysis.
Targets will be set for FY 2009 and out-years based upon FY 2008 results.

(3)Performance target for FY 2008

This is a new measure established in FY 2007. FY 2008 will be the baseline year for data
collection and analysis. Targets will be set for FY 2009 and out-years based upon FY
2008 results.

Measure 3, “Dollar value of real or other property seizures derived from/and/or used from
drug operations” was included because, as our report states, this output measure directly
evaluates the success of removing financial incentives for criminals and terrorists to
operate their drug activities. The scope of data demonstrates the ability, in a given
timeframe, of removing criminal financial assets.

In an effort to reduce losses to the public resulting from financial crimes, OI continues to
target transnational money laundering activities and bulk currency smuggling (both drug
related and non-drug related).

Also, OI does not provide year to year targets for seizures – only year end data.




                                                                                           6
(4) Quality of Performance Data

The database used to validate the Office of Investigations (OI) performance data is the
Treasury Enforcement Communication System (TECS). The Office of Investigation
conducts quality control verification on all data received through TECS.


Measure 3: Dollar value of real or other property seizures derived from/and/or used
from drug operations.

 FY 2003       FY 2004      FY 2005       FY 2006      FY 2007       FY 2007      FY 2008
  Actual        Actual       Actual        Actual       Target        Actual       Target
   N/A            N/A         N/A          N/A           N/A          N/A           N/A

(1) Description

This output measure directly evaluates the success of removing financial incentives for
criminals and terrorists to operate. The scope of data demonstrates the ability, in a given
timeframe, of removing criminal financial assets.

The outcome measure for OI as a whole is the percentage of closed investigations that
have an enforcement consequence defined as arrest, indictment, conviction, seizure, or
penalty. However, OI has constructed new performance measures that will tie drug
control efforts to impacts on the systems by which drugs and drug money are moved and
stored. However, ICE will continue to provide traditional measures such as drug seizures
to support the outcomes developed by ONDCP.

The Office of Investigations (OI) was reviewed in PART as one program. Therefore,
there are no separate findings for the Drug component of OI’s mission. Furthermore, ICE
is authorized to enforce Federal statutes and regulations concerning the movement of
carriers, persons, and commodities between the United States and other nations, which
enables ICE to play a key role in the overall anti-drug effort with a nexus to the border.

ICE has broad authority to investigate international financial crime and money
laundering. ICE’s jurisdiction is triggered by the illegal movement of criminal funds,
services, or merchandise across the nation’s borders and is applied pursuant to the
authority of the Bank Secrecy Act, the USA PATRIOT Act, and the Money Laundering
Control Act.

ICE participates in and actively supports the Organized Crime Drug Enforcement Task
Forces (OCDETF). ICE OCDETF Coordinators sit on each of OCDETF’s nine regional
task forces and actively interact with other federal law enforcement agencies, local police
chiefs, and state and local prosecutors. ICE dedicates resources to participate in highly
complex OCDETF investigations targeting major drug smuggling organizations.




                                                                                            7
(2) FY 2007 actual performance results

The Office of Investigations (OI) does not provide year to year targets for seizures. OI
only provides year end data on seizures.

As stated in our report, OI has proposed new performance measures and outputs for FY
2008 – FY 2013. These new performance measures and outputs are strategic in scope
and are also in the draft ICE Strategic Plan.

Measure 2, “percent of closed drug smuggling investigations which have an enforcement
consequence (arrest, indictment, conviction, seizure, fine or penalty)” is a new measure
established in FY 2007. FY 2008 will be the baseline year for data collection/analysis.
Targets will be set for FY 2009 and out-years based upon FY 2008 results.

(3) The performance target for FY 2008

The Office of Investigations (OI) does not provide year to year targets for seizures. OI
only provides year end data on seizures.

Measure 3, “Dollar value of real or other property seizures derived from/and/or used from
drug operations” was included because, as our report states, this output measure directly
evaluates the success of removing financial incentives for criminals and terrorists to
operate their drug activities. The scope of data demonstrates the ability, in a given
timeframe, of removing criminal financial assets.

In an effort to reduce losses to the public resulting from financial crimes, OI continues to
target transnational money laundering activities and bulk currency smuggling (both drug
related and non-drug related).

Also, OI does not provide year to year targets for seizures – only year end data.

(4) Quality of Performance Data

The database used to validate the Office of Investigations (OI) performance data is the
Treasury Enforcement Communication System (TECS). The Office of Investigation
conducts quality control verification on all data received through TECS.




                                                                                           8
The Office of Investigations (OI) does not assign agents to its different investigative
program areas. Each Special Agent in Charge (SAC) allocates resources based on
the threat within their area of responsibility. ICE agents target criminal violators in
all ICE programmatic areas and strive to levy criminal charges whenever possible
in order to send a strong message of deterrence. Retrospectively, we can estimate
FTE by dividing the latest actual total investigative hours expended by the program
in question. Prospectively, we use the latest actual percentage of total investigative
hours expended by the investigative area in question and apply the percentage to a
specific budget year.

In FY 2007, OI expended $362 million on Drug Smuggling Investigations.


                      PERFORMANCE SUMMARY REPORT 

                     OFFICE OF INTERNATIONAL AFFAIRS 



Office of International Affairs (OIA) was previously part of the Investigations Program.
Beginning in Mid FY 2007, it was separated out as a separate program. Therefore, there
are no existing OIA drug-related metrics. In FY 2008, OIA will be developing metrics to
be reported next year.


                   ICE MANAGEMENT ASSERTION REPORT


MANAGEMENT ASSERTIONS


   1.	 Performance reporting system is appropriate and applied.
       Systems are developed based on the support requirements of ICE operational
       stakeholders.

   2.	 Explanations for not meeting performance targets are reasonable.
       ICE continues to achieve progress on overall performance management by
       reviewing and refining program measures.

   3. Methodology to establish performance targets is reasonable and applied.
      Establishment of ICE performance targets are based on production as required by
      the stakeholders expressed needs.

   4.	 Adequate performance measures exist for all significant drug control
       activities. Performance measurements cover activities that meet the established
       threshold.




                                                                                         9
Report Distribution



      Department of Homeland Security
      Secretary 

      Deputy Secretary 

      Chief of Staff 

      Deputy Chief of Staff 

      General Counsel 

      Executive Secretary 

      Director, GAO/OIG Audit Liaison 

      Assistant Secretary for Policy 

      Assistant Secretary for Legislative Affairs 

      Assistance Secretary for Public Affairs 

      Under Secretary for Management 

      Chief Financial Officer 


      Office of National Drug and Control Policy
      Associate Director for Planning and Budget

      U.S. Immigration and Customs Enforcement
      Assistant Secretary
      

      Chief Financial Officer 

      ICE Audit Liaison 


      Office of Management and Budget
      Chief, Homeland Security Branch 

      DHS OIG Budget Examiner 


      Congress
      Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
